      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




June 16, 2011

TO:             Yvette Sanchez Fuentes
                Director, Office of Head Start
                Administration for Children and Families


FROM:           /Lori S. Pilcher/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Review of Kings Community Action Organization’s Compliance With Health and
                Safety Regulations for Head Start Programs (A-09-11-01000)


Attached, for your information, is an advance copy of our final report on Kings Community
Action Organization’s (the Grantee) compliance with Head Start health and safety regulations for
Head Start programs. We will issue this report to the Grantee within 5 business days. The
Administration for Children and Families, Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or Lori A. Ahlstrand, Regional
Inspector General for Audit Services, Region IX, at (415) 437-8360 or through email at
Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-11-01000.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



June 17, 2011

Report Number: A-09-11-01000

Ms. Glenda Stephens
Head Start Director
Kings Community Action Organization
1130 North 11th Avenue
Hanford, CA 93230

Dear Ms. Stephens:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Kings Community Action Organization’s
Compliance With Health and Safety Regulations for Head Start Programs. We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
James Kenny, Audit Manager, at (415) 437-8370 or through email at James.Kenny@oig.hhs.gov.
Please refer to report number A-09-11-01000 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Glenda Stephens


Direct Reply to HHS Action Official:

Ms. Jan Len
Regional Program Manager
Office of Head Start
Administration for Children and Families
90 Seventh Street, Ninth Floor
San Francisco, CA 94103
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 REVIEW OF KINGS COMMUNITY
   ACTION ORGANIZATION’S
COMPLIANCE WITH HEALTH AND
  SAFETY REGULATIONS FOR
    HEAD START PROGRAMS




                      Daniel R. Levinson
                       Inspector General

                          June 2011
                        A-09-11-01000
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provided an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

Kings Community Action Organization, Inc. (the Grantee), provides Head Start services to
children from birth to 5 years of age and their families through a comprehensive childcare program
at 11 State-licensed Head Start facilities in Kings County, California. For program year
April 1, 2009, through May 31, 2010, OHS awarded approximately $4.8 million in Federal Head
Start funds to the Grantee to provide services to 549 children. In 2009, the Grantee was also
awarded $299,571 in Recovery Act funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of October 2010:

   •   The Grantee had not obtained criminal record checks or signed statements regarding
       criminal history for 40 of its 160 employees. The Grantee obtained criminal record
       checks and signed criminal record statements for the 120 remaining employees.
       However, the Grantee did not obtain criminal record checks on two of these employees
       until after they were hired. In addition, the files on 39 of the 120 employees did not
       contain the required documentation of criminal record clearances.

   •   The Grantee’s 11 childcare facilities that we reviewed did not meet all Federal Head Start
       and State requirements on protecting children from unsafe materials and equipment. In
       addition, three of these facilities did not provide a fully secure environment for the
       children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow its existing procedures to ensure that it complied with Federal and State
health and safety requirements. The Grantee’s failure to follow these requirements jeopardized
the health and safety of children in its care.




                                                i
RECOMMENDATIONS

We recommend that the Grantee strengthen and consistently follow its existing procedures to
ensure that:

   •   criminal record checks are obtained before hiring employees and all employee files
       contain (1) documentation of criminal record clearances or exemptions and
       (2) employee-signed statements regarding criminal history and

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children,
       other unsafe conditions are addressed, and all facilities are secure.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Grantee described actions taken to address our
recommendations and the deficiencies that we identified. For the deficiency related to criminal
record checks, the Grantee stated that the finance director had a criminal record clearance at the
time of our audit. In addition, the Grantee stated that a large puddle of stagnant water adjacent to
the sidewalk near the Avenal facility’s front entrance was caused by the City of Avenal’s
sprinkler system, not by a water filtration system. The Grantee’s comments are included in their
entirety as Appendix B.

Although the finance director received a criminal record clearance, it was after the date of hire.
We revised our report to reflect that the puddle of stagnant water was caused by a sprinkler
system.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Federal Head Start Program ...............................................................................1
              Federal and State Requirements for Head Start Grantees ..................................1
              Kings Community Action Organization, Inc. ....................................................1
              Office of Inspector General Audits ....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATIONS ..........................................................................3

          CRIMINAL RECORD CHECKS ..................................................................................3
               Federal and State Requirements.........................................................................3
               Grantee’s Compliance With Federal and State Requirements ...........................4

          MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY................5
              Federal and State Requirements.........................................................................5
              Grantee’s Compliance With Federal and State Requirements ...........................6

          INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES ..................10

          RECOMMENDATIONS ...............................................................................................10

          GRANTEE COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ................................................10

APPENDIXES

          A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT SAFETY
              AND FACILITY SECURITY REQUIREMENTS

          B: GRANTEE COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start (EHS), which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal and State Requirements for Head Start Grantees

Pursuant to Federal Head Start requirements (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
requirements also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing requirements. Pursuant to
45 CFR § 1306.30(c), if State and local licensing standards are less stringent than the Head Start
requirements or if no State licensing standards are applicable, grantees must ensure that their
facilities comply with the Head Start Program Performance Standards related to health and
safety.

In California, childcare centers must comply with Title 22, division 12, chapter 1, of the
California Code of Regulations (CCR). Pursuant to CCR § 101156(a), unless a childcare
arrangement is exempt from licensure as specified in § 101158, no adult, general partners of a
partnership, controlling partners in a limited liability corporation, corporation, county, city,
public agency, or other governmental entity may operate, establish, manage, conduct, or provide
care and supervision without a valid license from the Department of Social Services (the
Department).

Kings Community Action Organization, Inc.

Kings Community Action Organization, Inc. (the Grantee), a private, nonprofit community
action agency, provides services to address the needs of low-income residents of Kings County,



                                                1
California. The Grantee provides Head Start services to children from birth to 5 years of age and
their families through a comprehensive program at 11 State-licensed facilities: Avenal, Clay,
Corcoran, Generations, Home Garden, Kettleman City, Lyndon B. Johnson, Oasis, Preston
Green, Rosa Parks, and Stratford. The Grantee also provides home-based services from one
EHS facility. The Grantee has received Head Start funding since 1965.

For program year April 1, 2009, through May 31, 2010, OHS awarded approximately
$4.8 million in Federal Head Start funds to the Grantee to provide services to 549 children. In
2009, the Grantee was also awarded $299,571 in Recovery Act funding.

Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records and 11 State-licensed facilities as of
October 2010. To gain an understanding of the Grantee’s operations, we conducted a limited
review of the Grantee’s internal controls as they related to our audit objective.

We performed our fieldwork from October 12 through October 22, 2010, at the Grantee’s
administrative offices in Hanford, California, and at its 11 State-licensed childcare facilities in
Kings County, California.

Methodology

To accomplish our objective, we:

   •    selected the Grantee based on prior risk analyses and discussions with ACF officials;

   •    reviewed Federal and State laws, regulations, and policies related to Federal grant awards
        and the Head Start program;

   •    interviewed the Grantee’s officials and employees;

   •    reviewed the Grantee’s Head Start grant applications and current grant award documents;



                                                  2
    •   reviewed the Grantee’s files on all 160 current Head Start employees; 1

    •   reviewed the Grantee’s licenses and documentation of fire inspections;

    •   visited the Grantee’s 11 State-licensed childcare facilities; and

    •   discussed our preliminary findings with Grantee and ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of October 2010:

    •   The Grantee had not obtained criminal record checks or signed statements regarding
        criminal history for 40 of its 160 employees. The Grantee obtained criminal record
        checks and signed criminal record statements for the 120 remaining employees.
        However, the Grantee did not obtain criminal record checks on two of these employees
        until after they were hired. In addition, the files on 39 of the 120 employees did not
        contain the required documentation of criminal record clearances.

    •   The Grantee’s 11 childcare facilities that we reviewed did not meet all Federal Head Start
        and State requirements on protecting children from unsafe materials and equipment. In
        addition, three of these facilities did not provide a fully secure environment for the
        children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow its existing procedures to ensure that it complied with Federal and State
health and safety requirements. The Grantee’s failure to follow these requirements jeopardized
the health and safety of children in its care.

CRIMINAL RECORD CHECKS

Federal and State Requirements

Pursuant to section 648A(g) of the Head Start Act (42 U.S.C. § 9843A(g)), a Head Start grantee
may not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State,
tribal, or Federal criminal record check covering all jurisdictions where the grantee provides

1
 Of the total, 140 employees were partially or fully funded by the Head Start grant award, and 20 employees were
paid through the indirect cost pool.


                                                        3
Head Start services to children; (2) a State, tribal, or Federal criminal record check as required by
the law of the jurisdiction where the grantee provides Head Start services; or (3) a criminal
record check as otherwise required by Federal law.

Section 101170(a) of the CCR states that the Department must conduct a criminal record review
of all persons specified in the Health and Safety Code § 1596.871(b), including the applicant;
adults responsible for administration or direct supervision of staff; any person, other than a child,
residing in the facility; any person who provides care and supervision to children; and any staff
person, volunteer, or employee who has contact with children. Section 101170(e) of the CCR
states that all individuals subject to a criminal record review must, before working, residing, or
volunteering in a licensed facility, obtain a California criminal record clearance or a criminal
record exemption as required by the Department.

Section 101170(d) of the CCR states that any individual subject to a criminal record review must
sign a Criminal Record Statement declaring whether he or she has been convicted of a crime,
other than a minor traffic violation, regardless of whether the individual was granted a pardon for
the conviction, the individual received expungement, or the individual’s record was sealed as a
result of a court order.

Section 101217(a) of the CCR states that the personnel record for each employee must contain,
among other things, (1) documentation of a criminal record clearance or a criminal record
exemption as required by CCR § 101170(e) and (2) a signed statement regarding the employee’s
criminal record history as required by CCR § 101170(d).

Grantee’s Compliance With Federal and State Requirements

The Grantee did not obtain criminal record checks or signed criminal record statements for 40 of
its employees. Specifically, the Grantee did not obtain criminal record checks for 9 employees,
criminal record checks and signed criminal record statements for 4 employees, and signed
criminal record statements for 27 employees.

Of the 13 employees who did not have criminal record checks, 12 were administrative
employees, and 1 was a food service worker at a childcare facility licensed for 24 children. The
office for 11 of the administrative employees was located approximately 1 mile from the nearest
childcare facility, and 1 administrative employee worked in the front office of a childcare
facility. The Grantee obtained a criminal record check for this employee after our visit. For the
food service worker, the Grantee had requested a criminal record check before employment and
mistakenly believed that clearance had been granted before the employee began work. The
Grantee then received a letter from the Department stating that a criminal record exemption for
the individual had to be obtained before she could work or be present at a childcare facility. The
Grantee misinterpreted the letter as allowing the individual to continue working at the childcare
facility while the Grantee requested an exemption. As a result of our review, this individual has
been reassigned to the Grantee’s administrative office and is no longer working at a childcare
facility.




                                                  4
Although the Grantee obtained criminal record checks and signed criminal record statements for
the 120 remaining employees, the Grantee did not obtain the checks on 2 employees (1 finance
director and 1 EHS coordinator) until after they were hired. The office for the finance director
was located approximately 1 mile from the nearest childcare facility, and the EHS coordinator
worked at a designated EHS administrative facility located approximately 1.5 miles from the
nearest childcare facility.

In addition, the files on 39 of the 120 employees did not contain the required documentation of
criminal record clearances. We confirmed that the Grantee had obtained the required criminal
record clearances for these employees.

By not ensuring that it complied with all employment requirements for employees who
supervised or had routine unsupervised contact with children, the Grantee potentially jeopardized
the safety of children in its care.

MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY

Federal and State Requirements

Pursuant to Federal Head Start requirements (45 CFR § 1304.53(a)(7)), grantees must provide
for the maintenance, repair, safety, and security of all Head Start facilities, materials, and
equipment. Pursuant to 45 CFR § 1304.53(a), among other requirements, grantees must ensure
that:

   •   an appropriate number of smoke detectors are installed and tested regularly;

   •   exits are clearly visible and evacuation routes are clearly marked and posted so that the
       path to safety outside is unmistakable;

   •   the selection, layout, and maintenance of playground equipment and surfaces minimize
       the possibility of injury to children;

   •   electrical outlets accessible to children have child-resistant covers, child-protection
       outlets, or safety plugs to prevent shock; and

   •   indoor and outdoor premises are cleaned daily and kept free of undesirable and hazardous
       materials and conditions.

Furthermore, 45 CFR § 1304.22(f) requires that first aid kits be readily available, well supplied,
restocked, and inventoried at regular intervals.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or less stringent than Head Start regulations or if no State or local licensing
standards are applicable, grantees must ensure that their facilities comply with the Head Start
Program Performance Standards related to health and safety.


                                                 5
The CCR specifies that childcare centers must protect children from unsafe materials and
equipment by, among other actions:

   •   posting signs at the entrance to the center that provide the telephone number of the local
       health department and information on child passenger restraint systems if the center
       provides transportation (CCR § 101225(f));

   •   maintaining the center in good repair at all times (CCR § 101238(a));

   •   taking measures to keep the center free of flies, other insects, and rodents
       (CCR § 101238(a)(1));

   •   storing disinfectants, cleaning solutions, poisons, and other items that could pose a
       danger to children in a location inaccessible to children (CCR § 101238(g));

   •   ensuring that any construction or equipment that could pose a hazard in an outdoor
       activity area is inaccessible to children (CCR § 101238.2(h));

   •   ensuring that floors of all rooms have safe and clean surfaces (CCR § 101238.3(b));

   •   storing combustibles, cleaning equipment, and cleaning agents in a locked cabinet
       separate from food or in a location inaccessible to children (CCR § 101238.4(d));

   •   maintaining furniture and equipment in good condition and free of sharp, loose, or
       pointed parts (CCR § 101239(n)); and

   •   arranging furniture and equipment, including cots and mats used for napping, so that no
       exit is blocked (CCR § 101239(p)).

Section 101238.2(g) of the CCR requires that the playground be enclosed by a fence at least 4 feet
high to protect children and to keep them in the outdoor activity area. Section 101238.2(g)(1) of the
CCR states that the fence should prevent children from leaving the outdoor activity area unnoticed
but not itself present a hazard.

Grantee’s Compliance With Federal and State Requirements

The Grantee’s 11 childcare facilities that we reviewed did not meet all Federal Head Start and
State health and safety requirements on protecting children from unsafe materials and equipment.
In addition, three of these facilities did not provide a fully secure environment for the children in
their care. We defined “facility security” as limiting public access to the facilities and preventing
children from leaving the facilities. We noted the following deficiencies at the Grantee’s
facilities, and we discussed the deficiencies with the site supervisors on duty during our visits. In
most instances, the site supervisors and the Grantee’s administrative staff took steps during our
fieldwork to address our concerns.




                                                 6
Home Garden (visited October 13, 2010)

   •   The facility had not installed any smoke detectors.

   •   A 6.5-inch gap in the playground fence could have permitted a child to leave the premises
       and enter an unsupervised parking area.

Clay (visited October 13, 2010)

   •   A door leading to an adult bathroom was unlocked, allowing children access to cleaning
       supplies.

   •   An unsecured fence gate led to an area with debris and construction materials. The gate
       latch was within children’s reach.

Rosa Parks (visited October 13 and 20, 2010)

   •   The facility had not installed any smoke detectors.

   •   The facility, which provided transportation services for children, did not post a sign with
       information on child passenger restraint systems.

Lyndon B. Johnson (visited October 14, 2010)

   •   A large container filled with supplies was stored on a wall-mounted shelf above the
       children’s toilet, posing a toppling hazard.

   •   A ramp from the classroom to the playground was partially obstructed by a wheelchair,
       walker, and other equipment.

Corcoran (visited October 14, 2010)

   •   Shelves and cabinets, between 4.5 and 6 feet high, were unbolted and posed a toppling
       hazard.

   •   A first aid kit had two bottles of expired pain reliever.

   •   A large wrinkle in the carpet presented a tripping hazard.

   •   A door leading from the playground to an adult bathroom was unlocked, allowing
       children access to large containers of cleaning solution (Appendix, Photograph 1).

   •   A cabinet in the playground area, approximately 7 feet high, was in poor condition and
       posed a danger.




                                                 7
   •   A file cabinet in the playground area was unlocked, allowing children access to cleaning
       supplies (baking soda and borax).

   •   A storage shed on the playground was unlocked, allowing children access to tools and
       other items that could pose a danger.

   •   Tree roots in the sand underneath the play structure presented a tripping hazard.

Preston Green (visited October 14 and 20, 2010)

   •   The facility had not installed any smoke detectors.

   •   The facility did not have exit signs near two doors.

   •   A file cabinet in a classroom was unlocked, allowing children access to rubber cement
       stored in the bottom drawer.

   •   A door to a walk-in closet was unlocked, allowing children access to shelves filled with
       various materials (Appendix, Photograph 2).

   •   One napping mat was torn and had exposed foam.

   •   Two electrical outlets in a classroom lacked protective caps.

   •   A classroom had a large number of flies.

   •   Irrigation control valve covers in the playground presented a tripping hazard (Appendix,
       Photograph 3).

   •   A rooftop air-conditioning unit drained through a rain gutter and created a pool of water
       on the playground sidewalk, presenting a slipping hazard (Appendix, Photograph 4).

   •   A leaking garden hose created muddy areas on the playground (Appendix, Photograph 5).

   •   Uneven pavement in the playground area presented a tripping hazard.

Generations (visited October 14 and 15, 2010)

   •   A cabinet in a classroom was unlocked, allowing children access to cleaning agents.

   •   A door in the children’s bathroom was unlocked, allowing children unsupervised access
       to the playground.

   •   An unsecured fence gate led to the yard of an adjoining senior center operated by the
       Grantee. The gate latch was within children’s reach.



                                                8
   •   Two unsecured covers for irrigation control valves in the playground presented tripping
       hazards. One covered a 15-inch-deep hole (Appendix, Photograph 6).

Kettleman City (visited October 15, 2010)

   •   The facility had not installed any smoke detectors.

   •   A first aid kit contained expired items. For example, a bottle of cough syrup was nearly
       2 years past its expiration date.

   •   A door to an adult bathroom was unlocked, allowing children access to cleaning agents.

   •   A door leading to a teachers’ office was unlocked, allowing children access to potentially
       hazardous materials and equipment (e.g., a paper cutter and shredder).

   •   An unsecured fence gate led to an unlocked garden toolshed (containing a lawnmower),
       unlocked kitchen, and open janitorial closet (containing cleaning supplies and a water
       heater). The gate latch was within children’s reach.

Oasis (visited October 15, 2010)

   •   The facility did not have an exit sign near a door.

   •   A fence gate that led from the playground to a parking lot and a busy road was unsecured.
       The gate latch was within children’s reach (Appendix, Photograph 7).

Avenal (visited October 15, 2010)

   •   Cabinets under the sink and counter area in a classroom were unlatched, allowing
       children access to cleaning agents.

   •   The overflow from a sprinkler system created a large puddle of stagnant water adjacent to
       the sidewalk near the facility’s front entrance (Appendix, Photograph 8).

   •   A door leading to a teen resource clinic was unlocked, allowing children access to
       potentially hazardous materials and equipment (e.g., a paper shredder that was powered
       on and two 6-foot-tall unbolted and unlocked cabinets with a television, computer, and
       various containers stored on top).

   •   A door leading to teachers’ offices was unlocked, allowing children access to potentially
       hazardous materials and equipment (e.g., silicone glue and a paper cutter).

   •   A door leading to a teachers’ meeting room was unlocked, allowing children access to a
       microwave and other items that could pose a danger.




                                                 9
   •   A storage shed on the playground was unlocked, allowing children access to tools and
       other items that could pose a danger.

   •   A fence gate that led to a driveway was unsecured. The gate latch was within children’s
       reach.

Stratford (visited October 18, 2010)

   •   A chain used to secure two tables on the playground presented a tripping hazard.

We notified the Grantee of these deficiencies during our visits, and the Grantee stated that it had
addressed or was in the process of addressing the unsafe conditions that we had identified.

By not ensuring that all facilities were kept free from unsafe materials and equipment and that all
facilities were secure, the Grantee jeopardized the health and safety of children in its care.

INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow existing procedures to ensure that it complied with Federal and State health
and safety requirements.

RECOMMENDATIONS

We recommend that the Grantee strengthen and consistently follow its existing procedures to
ensure that:

   •   criminal record checks are obtained before hiring employees and all employee files
       contain (1) documentation of criminal record clearances or exemptions and
       (2) employee-signed statements regarding criminal history and

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children,
       other unsafe conditions are addressed, and all facilities are secure.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Grantee described actions taken to address our
recommendations and the deficiencies that we identified. For the deficiency related to criminal
record checks, the Grantee stated that the finance director had a criminal record clearance at the
time of our audit. In addition, the Grantee stated that a large puddle of stagnant water adjacent to
the sidewalk near the Avenal facility’s front entrance was caused by the City of Avenal’s
sprinkler system, not by a water filtration system. The Grantee’s comments are included in their
entirety as Appendix B.




                                                10
Although the finance director received a criminal record clearance, it was after the date of hire.
We revised our report to reflect that the puddle of stagnant water was caused by a sprinkler
system.




                                                 11
APPENDIXES
                                                                          Page 1 of 4


APPENDIX A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
         SAFETY AND FACILITY SECURITY REQUIREMENTS




    Photograph 1 – Taken at Corcoran on 10/14/10 showing large
    containers of cleaning solution in an adult bathroom. The door was
    unlocked, allowing access to children from the playground.




    Photograph 2 – Taken at Preston Green on 10/14/10 showing shelves filled with
    various materials in a walk-in closet accessible from the classroom through an
    unlocked door.
                                                                      Page 2 of 4




Photograph 3 – Taken at Preston Green on 10/14/10 showing irrigation
control valve covers on the playground that presented a tripping hazard.




Photograph 4 – Taken at Preston Green on 10/14/10 showing a pool of
water on the playground sidewalk created by drainage from an air
conditioning unit on the roof.
                                                                      Page 3 of 4




Photograph 5 – Taken at Preston Green on 10/14/10 showing muddy
areas on the playground created by a leaking garden hose.




Photograph 6 – Taken at Generations on 10/14/10 showing a
15-inch-deep hole for an irrigation control valve with an unsecured
cover (removed for photograph).
                                                                        Page 4 of 4




Photograph 7 – Taken at Oasis on 10/15/10 showing an unsecured gate
on the playground that led to a busy road. The gate latch was within
children’s reach.




Photograph 8 – Taken at Avenal on 10/15/10 showing a large
puddle of stagnant water adjacent to the sidewalk near the facility’s
front entrance.
                                                                                                           Page 1 of 5


                     APPENDIX B: GRANTEE COMMENTS


                             Kings Community Action Organization, Inc. 

                         Response to Office of Inspector General Draft Report 



Home Garden (visited October 13,2010)

• The facility had not installed any smoke detectors.

A 6.5-inch gap in the playground fence could have pennitted a child to leave the premises and enter an
unsupervised parking area.

RESPONSE: The smoke alarms were installed and the fence gap has been closed with added chain link
fencing material.

Clay (visited October 13, 2010)

• A door leading to an adult bathroom was unlocked, allowing children access to cleaning supplies.

• An unsecured fence gate led to an area with debris and construction materials. The gate latch was within
children's reach.

RESPONSE: The adult bathroom remains locked and inaccessible to children.              The gate latch was
moved and placed out ofchildren's reach.

Rosa Parks (visited October 13 and 20. 2010J

• The facility had not installed any smoke detectors.

• The facility, which provided transportation services for children, did not post a sign with information on
child passenger restraint systems.

RESPONSE: Smoke detectors were installed in each classroom. Child restraint posters are posted.

Lvndon B. Johnson (visited October 14,2010)

• A large container filled with supplies was stored on a wall-mounted shelf above the children's toilet,
posing a toppling hazard.

• A ramp from the classroom to the playground was partially obstructed by a wheelchair, walker, and
other equipment.

RESPONSE.' Container was removed and supplies stored in a cabinet. Obstruction items were removed
immediately.

Corcoran (visited October 14, 2010)

• Shelves and cabinets, between 4.5 and 6 feet high, were unbolted and posed a toppling hazard.

• A first aid kit had two bottles of expired pain reliever.

• A large wrinkle in the carpet presented a tripping hazard.

• A door leading from the playground to an adult bathroom was unlocked, allowing children access to
large containers of cleaning solution (Appendix, Photograph 1).


                                                                                                          1
032911
                                                                                                                Page 2 of 5



                            Kings Community Action Organization, Inc. 

                        Response to Office of Inspector General Draft Report 



• A cabinet in the playground area, approximately 7 feet high, was in poor condition and posed a danger.

• A file cabinet in the playground area was unlocked, allowing children access to cleaning supplies
(baking soda and borax).

• A storage shed on the playground was unlocked, allowing children access to tools and other items that
could pose a danger.

• Tree roots in the sand underneath the play structure presented a tripping hazard.

RESPONSE: The cabinet was bolted to prevent toppling. Pain reliever was removedfrom FirstAid Kit.
The carpet was stretched to remove a trip hazard. The adult bathroom is locked and inaccessible to
children. Cabinet in playground area removed. File cabinet was removed. The outdoor storage shed is
locked and kept inaccessible to children. The tree service removed the roots.

Preston Green (visited October 14 and 20,2010)

• The facility had not installed any smoke detectors.

• The facility did not have exit signs near two doors.

• A file cabinet in a classroom was unlocked, allowing children access to rubber cement stored in the
bottom drawer.

• A door to a walk-in closet was unlocked, allowing children access to shelves filled with various
materials (Appendix, Photograph 2).

• One napping mat was tom and had exposed foam.

• Two electrical outlets in a classroom lacked protective caps.

• A classroom had a large number offlies.

• Irrigation control valve covers in the playground presented a tripping hazard (Appendix, Photograph 3).

• A rooftop air-conditioning unit drained through a rain gutter and created a pool of water on the
playground sidewalk, presenting a slipping hazard (Appendix, Photograph 4).

• A leaking garden hose created muddy areas on the playground (Appendix, Photograph 5).

• Uneven pavement in the playground area presented a tripping hazard.

RESPONSE: Smoke detectors and exit signs were installed. File cabinet is locked to prevent child
access. The door to the walk-in supply closet is locked and inaccessible to children. Nap mat removed
and replaced with a new one. The electrical outlets have secured caps in place. All dead flies were
removed from the window sill. Irrigation control valve covers were enclosed to prevent tripping hazard.
The AC water drainage was rerouted to prevent water from entering the playground sidewalk. The side
walk has been redone to alleviate the tripping hazard. Leaking garden hose was replaced.




                                                                                                            2
032911
                                                                                                              Page 3 of 5



                             Kings Community Action Organization, Inc. 

                         Response to Office of Inspector General Draft Report 




Generations (visited October 14 and 15.20101

• A cabinet in a classroom was unlocked, allowing children access to cleaning agents.

• A door in the children's bathroom was unlocked, allowing children unsupervised access to the
playground.

• An unsecured fence gate led to the yard of an adjoining senior center operated by the Grantee. The gate
latch was within children's reach.

• Two unsecured covers for irrigation control valves in the playground presented tripping hazards. One
covered a 15-inch-deep hole (Appendix, Photograph 6).

RESPONSE: Cabinet is locked and inaccessible to children. The door to the children's bathroom is
locked and accessible to them only when supervised by a teacher. A new gate latch has been installed
and inaccessible to children's reach. Irrigation controls valves have been enclosed to prevent children's
access.

Kettleman City (visited October 15, 2010)

• The facility had not installed any smoke detectors.

• A first aid kit contained expired items. For example, a bottle of cough syrup was nearly 2 years past its
expiration date.

• A door to an adult bathroom was unlocked, allowing children access to cleaning agents.

• A door leading to a teachers' office was unlocked, allowing children access to potentially hazardous
materials and equipment (e.g., a paper cutter and shredder).

• An unsecured fence gate led to an unlocked garden tool shed (containing a lawnmower), unlocked
kitchen, and open janitorial closet (containing cleaning supplies and a water heater). The gate latch was
within children's reach.


RESPONSE.' Smoke detectors installed. Cough syrup removed/rom FirstAid Kit. A latch was installed
and is kept locked on the adult bathroom to prevent child access. Teachers' office is locked to prevent
child access. The gate latch was replaced and inaccessible to children's access.

Oasis (visited October 15,2010)

• The facility did not have an exit sign near a door.

• A fence gate that led from the playground to a parking lot and a busy road was unsecured.
The gate latch was within children's reach (Appendix, Photograph 7).

RESPONSE.' Exit signs installed. Gate latch replaced and inaccessible to children.




                                                                                                         3
032911
                                                                                                                   Page40fS



                               Kings Commun ity Act ion Organi7.atio11, Inc. 

                           Response 10 omcc of Inspector General Draft Report 



til·cnul (I>i.lited October H, 1011J)

• Cabinets unuer the sink and counler area in a classroom were: unla tchnl, allowing children access to
cleaning ag~nts.

• The overflow from a waler filtration sy~ l cm crealoo a large puddle of stagnant water adjacent to th e
sidewalk ncar the faciliTy's from entrance (Appendix, Photograph 8).

• A door leading lu a leen resource c linic was unlocked, all owin g children 3\;CCSS to potentially hazardous
materials and equi pm ent (e. g., a paper shredder lhal was powered on and tw o 6-fooHali unbolled ami
un locked cabinets Wilh a television.. compute r. and various co ntainers Slo~ on top).

• A d"or leadi ng 10 leache", ' ofl icc. Was un locked, all owin g chil dren acce.s to pote ntiall y ha 7.ardou.
malerials and equipment {e.g., silicone glue and a paper CUller}.

• A door leading to a teachers' meeting room was unlocked, allowing children access 10 a mi crowave and
ol her items thaI could pose a danger.


• A slorage shed on Ihe playground was unl ocked, all owing children access 10 tools and olher ilems Ihat
could pose a dan g~r.

• A   fence gate thaI led 10 a driveway lVas unsecured. TIle gate lalch was wi thin children 's reac h.

RESPONSE: Cleaning agents are inaccessible 10 children. The C ily of A wnal sprinkler syslem's
wafering lime has been reduced 10 pr",'enl Slagnanl waler. The waler fillralwn .'yslem was not Ihe cause.
rhe sile direclor is mnniloring Ihe area close!}' 10 en.vure Ihere is no puddle. Door lalches were in</al/ed
10 the ojJice.f and meetlng rooms 10 make Ihem ,'na<'<'es."ible 10 <·hildren. Outdoor storage .,·hed ,'.' locked
10 ",ak" it ina':Cfis.,ible to children. Gale laId, ha.\" been ins/ailed and inacce"',·ible 10 children.

S"f1tford (.isiled October 18, Z010}

• A chain used to sc<:ure two tabl es on the playground pre~ent ed a tripping hnard.

We notificd th e Grantce ofth e~e deficiencies during our visilS, and the Gmnlee slaled Iha! it had
addressed or was in Ih e process of addressing Ihe unsafe condi tions Ihal lVe had identified.

By not ensuring Iha l all facilities were kepi free from unsafe materials and equipment and Ih at all
facilities lVere sec ure, the Grantee jeopardized the heallh and safety of children in its care.

RESPONSE: The chains "'ere im",,,dialely r""'O'I'ed and had b"en instafl"d due 10 vandalism and a., a
prll wn/ive mea.fUr" for Iheji.


I NA m:Q [JA T~:    OR INCONS ISn:NTLY FO I. I.OWEH              I'IH)CEl} lJR~:S
'Illese deficiencies OCC UlTed because Ihe Granlee did nol have adequate procedures or did not consislently
follow exis ti ng procedures 10 ensure Ihat it complied with Federal and Slate health and ~afely
rt llulrc;mc nt s.




                                                                                                              4
032911
                                                                                                             Page 5 of 5



                            Kings Community Action Organization, Inc. 

                        Response to Office of Inspector General Draft Report 



RECOMMENDAnONS 

We recommend that the Grantee strengthen and consistently follow its existing procedures to ensure that: 


• criminal record checks are obtained before hiring employees and all employee files contain (I)
documentation of criminal record clearances or exemptions and (2) employee-signed statements regarding
criminal history and

• all unsafe materials and equipment are stored in locked areas out of the reach of children,
other unsafe conditions are addressed, and all facilities are secure

RESPONSE: All administrative employees have since been sent for reprinting and cleared or are
awaiting clearance with FBIIDGJICHILD

The food service worker has been relieved ofher duties pending an exemption

The Finance Director (who resigned on 1012512010) did have a criminal record clearance at the time of
the audit. The dates of his clearance do appear on the spread sheet forwarded to GIG from Community
Care Licensing that included the clearance dates for all Head Start employees that we didn't have the
 "source" documentation on. His clearance dates are: DGJ 71812008, FBI 6130108 and CACI 71212008

The EHS coordinator's date of initial employment was on 812012009. We received her clearance on that
date. We were not aware that the CACI was not included. She cleared the DGJ 812012009 FBI 812012009
and CACI 812112009.

RESPONSE: All program monitors will ensure the areas ofhealth and safety are addressed immediately
during site visits. Monitoring will include identification of unsafe materials and equipment is stored,
locked and out ofchildren's reach.




                                                                                                        5
032911
